                                                      




                OFFICE OF INSPECTOR GENERAL


                               SPECIAL REVIEW

               OF NEA's GRANT APPLICATION

                         AND AWARD PROCESS


                               REPORT NO. R-14-02



                                        April 18, 2014


                                 REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on
the National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General. Information contained in this report
may be confidential. The restrictions of 18 USC §1905 should be considered before this information is
released to the public. Furthermore, information contained in this report should not be used for purposes
other than those intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
 


                                                               INTRODUCTION
The National Endowment for the Arts (NEA) was established by Congress in 1965 as an
independent agency of the Federal government. NEA is the largest annual national
funder of the arts in the United States. NEA has awarded more than $4 billion to support
artistic excellence, creativity, and innovation for the benefit of individuals and
communities. NEA extends its work through partnerships with state arts agencies, local
leaders, other Federal agencies, and the philanthropic sector. These partnerships focus on
three areas: design, arts education, and international.

Objective, Scope, and Methodology

NEA Office of Inspector General (OIG) conducted a review of two NEA initiatives, the
Mayors' Institute on City Design 25th Anniversary (MICD25) and fiscal year (FY) 2011
Our Town programs. Specifically, we reviewed the grant application and award process
of these two initiatives. The objectives were to determine whether award decisions for
MICD25 and FY 2011 Our Town programs were made in accordance with NEA's
governing legislation and internal policies and procedures.1

Our review was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency Quality Standards for Inspection and Evaluation (Standards), as
applicable. Accordingly, we included such tests of records and other procedures that
were considered necessary under the circumstances. The Standards require that we
obtain sufficient and appropriate evidence to support a reasonable basis for our findings
and conclusions.

We gained an understanding of the grant application and award process by observing
advisory panel meetings, interviewing NEA staff, and reviewing written policies and
procedures. Also, for each of the two Federal grant programs reviewed, we judgmentally
selected a sample of five grant applications that were approved and five grant
applications that were not approved for funding.

                                                               BACKGROUND
Advisory Panel

According to NEA's legislation2, an advisory panel should be utilized to review
applications and make recommendations, based solely on artistic excellence and artistic
merit, to the National Council on the Arts (NCA), which reviews applications and makes

                                                            
1
  National Foundation on the Arts and the Humanities Act of 1965, National Arts and Cultural
Development Act of 1964, 20 USC §959 (2010), National Endowment Arts Appropriations as of Fiscal
Year 2010, and Related Legislation; NCA Description, MICD25 Program Description, FY 2011 Our Town
Program Description, NEA Directive 3100 (Advisory Panels), and Standards of Conduct for NEA Panelist
(November 2011)
2
  20 USC §959(c) Advisory panels; membership; procedures



                                                                    1
 


final recommendations to the Chairman. Advisory panels are required when applications,
nominations, or proposals are received under any competitive funding opportunity.

NEA's Office of Guidelines and Panel Operations (OGPO) is the office that oversees the
overall advisory panel system; which includes panel approval, panel budget, panel
meetings, and panelist payment processes. OGPO consists of four staff members: (1)
Director, (2) Panel Coordinator, (3) Program Analyst, and (4) Staff Assistant. The
OGPO Director reviews and approves all proposed advisory panels and substitutions.
The OGPO Director also may approve ad hoc advisory panels that are composed entirely
of members of a recently (within the past year) approved advisory panel. The originating
artistic discipline office recommends candidates for advisory panels, and works with
OGPO to carry out all phases of the advisory panel process. NEA's Senior Deputy
Chairman and the Deputy Chairman for the artistic discipline, review and provide final
approval for the recommendations.

Individuals who are considered for an advisory panel generally should have expertise
related to the types of projects that the advisory panel will review and/or the policy or
other related issue(s) that the advisory panel will discuss. NEA legislation requires that
all advisory panels be "composed, to the extent practicable, of individuals reflecting a
wide geographic, ethnic, and minority representation as well as individuals reflecting
diverse artistic and cultural points of view."3 All advisory panels should also include, to
the extent practicable, a balance of men and women. Furthermore, every advisory panel
should include a layperson who is "knowledgeable about the arts, but who are not
engaged in the arts as a profession, and are not members of either artists' organizations or
arts organizations."4 Someone who currently works in the public, private, or nonprofit
sector with primary job responsibilities in the arts or in arts funding is not considered a
layperson. It is NEA policy that advisory panel composition generally should include at
least one-third representation of people of color and no more than one representative
from any state or jurisdiction.

NEA legislation requires that the Chairperson issue regulations and establish procedures
to require that "the membership of each advisory panel change substantially from year to
year and to provide that each individual is ineligible to serve on an advisory panel for
more than three consecutive years."5 It is NEA policy that generally at least one-third of
the membership on each advisory panel should not have served on the previous advisory
panel. Advisory panels should generally include a minimum of three people (including
the layperson).

National Council on the Arts

The National Council on the Arts (NCA) was established through the National Arts and
Cultural Development Act of 1964, a full year before NEA was created by Congressional
legislation. The National Foundation on the Arts and Humanities Act of 1965,
                                                            
3
  20 USC §959(c)(1)
4
  20 USC §959(c)(2)
5
  20 USC §959(c)(6)



                                                               2
 


established NEA and provided for 26 citizens to serve as advisors to the agency as
members of NCA. Members were appointed by the President and approved by the
Senate for six-year, staggered terms. Congress has since enacted legislation that reduced
the membership of NCA.

NCA meetings are held for one-day sessions three times a year. Prior to Council
meetings, NEA staff brief NCA about pending grant applications that will be considered,
as well as the deliberations of the advisory panels. NCA reviews the applications
submitted by the advisory panel and make recommendations to NEA's Chairman on
grants, funding guidelines, and leadership initiatives.

Mayors' Institute on City Design 25th Anniversary Initiative (MICD25)

Since 1986, NEA has held the Mayors' Institute on City Design (MICD) sessions to help
educate Mayors on the importance of city design. MICD, a NEA leadership initiative in
partnership with the American Architectural Foundation and the U.S. Conference of
Mayors, organizes sessions where mayors engage leading design experts to find solutions
to the most critical urban design challenges facing their cities.

In January 2010, NEA posted a grant opportunity to celebrate the 25th anniversary of
MICD. NEA requested statements of interest from eligible applicants to be submitted by
March 15, 2010. Eligible applicants for the MICD25 program were local governments,
or its designees, that had participated in MICD during its 25-year existence. NEA
received 207 statements of interest from different organizations for the MICD25
program.

A team consisting of five NEA staff members and two representatives from other Federal
agencies reviewed and evaluated each submission. Of the 207 statements of interest
received, 59 organizations were invited to formally apply for the program. NEA issued
the invitation on April 8, 2010, with an application deadline of May 10, 2010.

NEA's Design Division selected a seven-member advisory panel to evaluate MICD25
grant applications and work samples. The selected advisory panel consisted of
representatives from arts organizations, universities, local government, and a layperson
from seven different states.

NEA's Design Division prepared advisory panel books, which contained each grant
application package. Advisory panel books were mailed to the panelists on May 19,
2010. Each panelist reviewed and evaluated grant applications individually prior to the
advisory panel meeting. (We noted that NEA selected 59 applicants during the statement
of interest process; however, only 50 applicants submitted formal grant applications and
work samples.)

The MICD25 Advisory Panel meeting was held on June 3-4, 2010. Panelists' initial
evaluation ratings for each grant application were reviewed and evaluated. Applications
were discussed in detail and documented. Of the 50 organizations that submitted grant



                                            3
 


applications, 21 were recommended for funding and 29 were recommended for rejection.
The total funding amount requested from the 21 applicants recommended for funding was
$3,702,500. However, in order to meet the allocated amount in the budget for the
program, a funding level of $3,000,000 was recommended.

The 21 MICD25 grant applications were then submitted to NEA's Office of Grants and
Contracts for project budget review. Once reviewed, the recommendations for the 21
applicants were submitted to NCA for approval. The NCA meeting was held on June 24-
25, 2010, with NCA approving all 21 applicants for funding.

FY 2011 Our Town

NEA's Our Town grant program invests in creative and innovative projects in which
communities, together with their arts and design organizations and artists, seek to
improve the quality of life, encourage creative activity, create community identity and
revitalize local economies.

In January 2010, NEA posted a grant opportunity for the FY 2011 Our Town program.
NEA requested statements of interest from eligible applicants to be submitted by
March 1, 2011. Eligible applicants for the FY 2011 Our Town program were to have
partnerships that involved a minimum of two primary organizations: a governmental
entity and a nonprofit design or cultural organization. The nonprofit design or cultural
organization was also required to have a three-year history of programming prior to the
application deadline. NEA received 447 statements of interest from different
organizations for the FY 2011 Our Town program.

A team consisting of ten NEA staff members and two representatives from another
Federal agency reviewed and evaluated each submission. Of the 447 statements of
interest received, 112 organizations were invited to formally apply for the program. NEA
issued the invitation to apply on March 25, 2011, with an application deadline of April
25, 2011.

NEA's Design Division selected a nine-member advisory panel to evaluate FY 2011 Our
Town grant application and work samples. The selected advisory panel consisted of
representatives from arts organizations, universities, local government, and a layperson
from nine different states.

NEA received 105 grant applications for the FY 2011 Our Town program. (We noted
that NEA selected 112 applicants during the statement of interest process; however, only
105 applicants submitted formal grant applications). Once grant applications were
received, NEA provided panelists with online access to the applications about a month in
advance of the advisory panel meeting. At this stage, the panelists reviewed the
applications and work samples, entering their preliminary comments, and assigning initial
ratings. Artistic excellence and merit are the two primary review criteria specified by
Congress in NEA's authorizing legislation. Each application was given a score based on
a one-to-ten scale (one being low and ten being high).



                                            4
 



The FY 2011 Our Town Advisory Panel meeting was held on May 25-27, 2011.
Panelists discussed their initial ratings for each grant application and work samples. Of
the 105 applicants that submitted grant applications, 51 were recommended for funding
and 54 were recommended for rejection. The total funding amount requested from the 51
applicants recommended for funding was $8,175,000. However, in order to meet the
allocated amount in the budget for the program, a funding level of $6,575,000 was
recommended.

The 51 FY 2011 Our Town grant applications were then submitted to NEA's Office of
Grants and Contracts for project budget review. Once reviewed, the recommendations
for the 51 applicants were submitted to NCA for approval. The NCA meeting was held
in June 2011, with NCA approving all 51 applicants for funding.

                           RESULTS OF REVIEW
Based on our review, we determined that NEA's grant application and award process for
MICD25 and FY 2011 Our Town programs were conducted in accordance with NEA's
governing legislation and internal policies and procedures. However, we noted during
our review, that NEA does not have written policies for determining geographic location.

When interviewing NEA staff, we were informed that as of FY 2012, applications for the
Our Town program are categorized by type of project and geographic location (rural or
metropolitan) prior to being reviewed and evaluated. However, there are no written
policies for this process. Without written policies, determination of geographic location
may not be consistently implemented.

We recommend that NEA develop written policies for the determination of geographic
location.

                            EXIT CONFERENCE
An exit conference was held with NEA officials on March 20, 2014. NEA officials
concurred with our finding and recommendation.

                           RECOMMENDATION
We recommend that NEA develop written policies for the determination of geographic
location.

                                NEA RESPONSE
NEA management submitted a written response to the draft report on April 16, 2014,
which included written policies for the determination of geographic location. NEA's
written response is attached.



                                            5
                                                                                                                 Attachment


ART WORKS.
          art.sgoi


 April 16, 2014



 Dear Inspector General:

As per the recommendation in Report R44-02 from the Office of Inspector General, this document serves to create a
written policy regarding Our Town applicant geographic designation.

In order to determine each Our Town applicants geographic designation, NEA Design staff will formally implement the
following protocols:

1)    Beginning in April 2014, upon receipt of Our Town applications and after a determination has been made of the final
      list of eligible applicants, the Design staff will send the complete list of eligible applicants to the NEA Office of Research
      and Analysis.

2)    Under the guidance of the Office of Research and Analysis’ (ORA) Director, Sunil lyengar, the ORA staff will use
      existing Standard Metropolitan Area (SMA)census data and locations to review applicants geographic population and
      coordinates in order to determine whether an applicant falls under one of the following three categories:
      a) Urbanized Areas (UAs) of 50,000 or more people;
      b) Urban Clusters (UCs) of at least 2,500 and less than 50,000 people; or
      c) “Rural” encompasses all population, housing, and territory not included within an urban area

3)    ORA will then give a list of each Our Town applicant SMA designation and return the applicant list to the Design
      Director, Jason Schupbach. From there the Design team will then designate each applicant as “metropolitan”
      (Urbanized Area) or “non metropolitan” (Urban Cluster or Rural) With this information, the Design team then develops
      a series or “metropolitan” and “nonmetropolitan” panels for the appropriate applications.

Please note that this process has been in place on an informal basis since Our Town’s inception. With the recommendation
provided by the OIG review, this process is now formally documented to ensure adherence to a systematic approach to
determining the geographic designations. A copy of the approved process will be maintained by the Design Director and
the representative Division Coordinator, Michael McLaughlin. This process will also be documented in the Our Town FAQs
on arts.gov and reinforced through the Our Town webinars led by Jason Schupbach.




  an Shigckav a
/ tirg(la Td
Nat    a Erdo     i   it




National Endowment for the Arts
The Nanc’ Honks Center
:100 Pe9nsyano Avenue NW
Washinglor DC 20506 0001
